         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
The Department's Infrastructure
Modernization Projects under the
Recovery and Reinvestment Act of
2009




OAS-RA-L-11-04                       March 2011
DOE F 1325.8

(08-93)
United States Government                                                               Department of Energy


Memorandum
          DATE:   March 2, 2011                                Audit Report Number: OAS-RA-L-11-04
    REPLY TO
     ATTN OF:     IG-34 (A10RA032)
     SUBJECT:     Report on "The Department's Infrastructure Modernization Projects under the American
                  Recovery and Reinvestment Act of 2009"
            TO:   Manager, Oak Ridge Office
                  Manager, Berkeley Site Office

                  INTRODUCTION AND OBJECTIVE

                  The American Recovery and Reinvestment Act of 2009 (Recovery Act) was enacted on
                  February 17, 2009. The goals of the Recovery Act are to retain or create jobs, increase
                  economic efficiency, and invest in infrastructure that will provide long-term economic
                  benefits. The Recovery Act provided just over $36 billion for the Department of Energy
                  (Department), including $198 million to be used by the Office of Science (Science) for
                  infrastructure modernization initiatives. According to Science officials, modernization was
                  needed to many Department laboratories, offices, and other facilities due to their age.
                  Science's Recovery Act Infrastructure Modernization initiatives include:

                      • Science Laboratories Infrastructure (SLI) projects totaling $108 million to
                        accelerate existing construction projects under Science's Infrastructure
                        Modernization Initiative; and,

                      • General Plant Projects (GPP) totaling $90 million to improve high-priority
                        facilities, increase economy and efficiency of laboratories, reduce safety hazards,
                        and reduce operating costs at our national laboratories.
                  We initiated this audit to determine if the Department is efficiently and effectively
                  managing its Recovery Act infrastructure modernization projects.

                  CONCLUSIONS AND OBSERVATIONS

                  During our review of six GPP and three SLI projects at the Oak Ridge National Laboratory
                  (ORNL) and the Lawrence Berkeley National Laboratory (LBNL), we noted that project
                  managers at both sites generally employed project management practices required by the
                  Department. Our review also did not disclose issues with projects meeting their cost and
                  schedule baseline estimates. In addition, supporting documentation and separate accounts
                  were maintained to segregate and report on Recovery Act expenditures. We found that the
                  projects we reviewed generally complied with various Recovery Act requirements,
                  including ensuring that the requirements properly flowed down to the subcontracts, as
appropriate. Finally, we observed that the sites followed applicable guidelines in reporting
jobs created through the use of Recovery Act funds within these nine infrastructure
modernization projects during the fourth quarter of Fiscal Year 2010.
We did, however, identify one instance where LBNL planned to use Recovery Act funds
for infrastructure improvements for which there was no immediate need.

                           Infrastructure Modernization Projects

At the time of our site visit, LBNL planned to use $2.6 million in Recovery Act funds
within the Transformer Bank modernization project at Grizzly Peak to purchase a
switching station for which there was no current demand and which would not be placed
into service for some time. Laboratory officials indicated that, through a technical review,
they had determined there was a long-term need for the switching station. However, the
LBNL 2006 Long Range Development Plan, which provides guidance on the Laboratory's
physical development over the next 20 years, stated that the Laboratory's current (2006)
electrical supply and distribution system has the capacity to meet current and future
demand beyond what is forecast in the plan.

This occurred because LBNL did not adequately ensure that Recovery Act spending
yielded the optimum benefit to the Department. The GPP Project Operating Plan stated
that the Recovery Act projects would address high priority facilities. However, in its
efforts to promptly spend surplus GPP Recovery Act funds, LBNL planned to purchase a
switching station which would not be needed nor fully operable until future construction
was completed.

Subsequent to our raising concerns over the lack of immediate need for the switching
station, LBNL officials stated that they had decided to change their plan and use the
$2.6 million to expand the laboratory's Building 62 refurbishment project. The Building 62
refurbishment project was originally designed to upgrade the third floor of the building;
LBNL now plans to add a second phase to the project, which will provide $2.6 million in
Recovery Act funds to upgrade first floor office and laboratory space. Prior to changing
their plan, LBNL had expended about $125,000 in Recovery Act funds on the design of the
switching station. According to LBNL officials, they plan to reimburse this amount with
non-Recovery Act funds.

SUGGESTED ACTIONS

To help derive the greatest benefit from Recovery Act expenditures for infrastructure
modernization, we suggest that the Berkeley Site Office thoroughly review all project plans
to ensure that LBNL is using Recovery Act funds to upgrade equipment, laboratory space,
and office space that offers the maximum benefit to the Department.




                                      2
Since no formal recommendations are being made in this report, a response is not required.
We appreciate the cooperation of your staff and the various Departmental Elements that
provided information or assistance.




                                     Daniel M. Weeber, Director
                                     Environment, Technology, and
                                        Corporate Audits Division
                                     Office of Inspector General

Attachment

cc: Assistant Director, Office of Risk Management, CF-80
    Team Leader, Office of Risk Management, CF-80
    Audit Resolution Specialist, Office of Risk Management, CF-80
    Audit Liaison, Office of Science, SC-41




                                     3
                                                                                      Attachment


SCOPE AND METHODOLOGY

This review was performed between September 22, 2010, and January 26, 2011, at the
Department of Energy's (Department) Oak Ridge National Laboratory (ORNL) in Oak Ridge,
Tennessee and Lawrence Berkeley National Laboratory (LBNL) in Berkeley, California. To
accomplish the objective of this audit, we:

    •   Reviewed the American Recovery and Reinvestment Act of 2009 (Recovery Act)
        legislation and project management guidance;

    •   Reviewed Departmental policies and procedures related to Recovery Act reporting and
        project management practices;

    •   Interviewed officials from Headquarters Office of Science to gain an understanding of
        the roles, responsibilities, and procedures related to the infrastructure modernization
        projects being funded by the Recovery Act;

    •   Analyzed data extracted from the Department's iPortal system and identified Recovery
        Act infrastructure modernization projects;

    •   Interviewed officials from ORNL and the Oak Ridge Operations Office, as well as from
        LBNL and the Berkeley Site Office to gain an understanding of the controls in place to
        ensure Recovery Act requirements are met and sound project management practices are
        employed;

    •   Reviewed documentation supporting project management practices employed by the
        sites;

    •   Reviewed supporting documentation for selected transactions to determine compliance
        with Recovery Act reporting requirements; and,

    •   Conducted walkthroughs of the infrastructure modernization projects at both
        laboratories.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. The audit included tests of
controls and compliance with laws and regulations necessary to satisfy the audit objective.
Because our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. We assessed performance measures
established under the Government Performance and Results Act of 1993 and found that targets
were created to monitor the progress of infrastructure modernization projects and programs.




                                                4
                                                                        Attachment (continued)


Finally, we did not rely on automated data processing information to accomplish our audit
objective.

The Department waived an exit conference.




                                               5
                                                                IG Report No. OAS-RA-L-11-04

                                  CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?


3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?


4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?


5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
